BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Brief in Opposition in 20-1768, Ron Fenn v.
City of Truth or Consequences, Michael Apodaca, Police
Chief Lee Alirez, and Daniel Hicks, was sent via Next
Day Service to the U.S. Supreme Court, and 3 copies
were sent via Next Day and email service to the
following parties listed below, this 13th day of August
2021:
A. Blair Dunn
400 Gold Ave SW, Suite 1000
Albuquerque, NM 87103
(505) 750-3060
abdunn@ablairdunn-esq.com
Counsel for Petitioner
Mark D. Stanridge
Cody R. Rogers
2540 El Paseo, Suite D
Las Cruces, New Mexico 88001
(575) 288-1453
mstandridge@jarmielaw.com
crogers@jarmielaw.com
Counsel for Respondents
City of Truth or Consequences,
Michael Apodaca, Police Chief Lee Alirez

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Stephen S. Hamilton
Counsel of Record
Kaleb W. Brooks
Montgomery & Andrews, P.A.
P.O. Box 2307
Santa Fe, New Mexico 87504-2307
(505) 982-3873
shamilton@montand.com
Counsel for Respondent
Daniel Hicks

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on August 13, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

&~ 13 1 JDd/

Notary~~,

k4!J=

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
~'1\1 Commission Expires
r , bruary 14, 2023

